               Causes of the Postal Service
                     FERS Surplus




                            October 16, 2012




Sponsored by U.S. Postal Service Office of Inspector General
             Report Number: RARC-WP-13-001
U.S. Postal Service Office of Inspector General                                                     October 16, 2012
Causes of the Postal Service FERS Surplus                                                           RARC-WP-13-001



                 Causes of the Postal Service FERS Surplus


Introduction
The U.S. Postal Service has a $13.1 billion pension surplus as of September 30, 2011,
according to projections by the Office of Personnel Management (OPM). 1 Most of this
pension surplus, $11.4 billion, is from the Federal Employees’ Retirement System
(FERS). 2 OPM’s funding estimates for FERS have shown a persistent surplus since
1992, and in the most recent estimate, the FERS surplus increased by $4 billion from
the year before. 3 The U.S. Postal Service Office of Inspector General (OIG) wanted to
investigate the reasons behind the FERS surplus and discover whether the surplus is
likely to decline, continue at the same level, or increase in the future. Specifically, we
were interested in knowing whether there were distinctive characteristics of the Postal
Service and its employees driving the surplus, and if so, whether there was reason to
believe that these characteristics would continue to be different from the rest of the
FERS population into the future. To find answers to these questions, the OIG contracted
with Hay Group, an independent actuarial firm with expertise on Postal Service
retirement liabilities.

The results of Hay Group’s work appear in the following report, Evaluation of the USPS
Postal Service Fund for Employees Enrolled in the Federal Employees Retirement
System. Hay Group found that the FERS surplus does result from differences between
Postal Service characteristics and the characteristics of the rest of the federal
government. The federal assumptions do not reflect these differences, leading the
surplus to increase over time. The primary cause of the increasing surplus is that postal
salary growth has been lower than the federal assumptions. Hay Group recommends
using Postal Service-specific assumptions to estimate the FERS liability. When Postal
Service-specific assumptions are used, the fiscal year (FY) 2011 surplus increases to
$24.0 billion. On this basis, the Postal Service’s FERS obligation would be funded by
more than 137 percent.

In addition to the FERS surplus, there is a $1.7 billion surplus in the Civil Service
Retirement System (CSRS) fund. The OIG intends to conduct follow-up work examining
the effect of using Postal Service-specific assumptions on the CSRS surplus. However,
when the current CSRS surplus is included, the total projected Postal Service pension
surplus increases to $25.7 billion.



1
  For more information, see U.S. Postal Service Office of Inspector General, Pension and Retiree Health Care
Funding Levels, Management Advisory Report Number FT-MA-12-002, June 18, 2012,
http://www.uspsoig.gov/foia_files/FT-MA-12-002.pdf.
2
  The remaining $1.7 billion surplus is from the older Civil Service Retirement System (CSRS) pension program.
3
  OPM provides its pension estimates with a one year lag, and the results are projected forward to the most recent
fiscal year. OPM’s funding estimate of the FERS surplus as of fiscal year (FY) 2010 was $10.9 billion, $4 billion more
than the estimate as of FY 2009. The FY 2011 projection was $11.4 billion.


                                                          1
U.S. Postal Service Office of Inspector General                                               October 16, 2012
Causes of the Postal Service FERS Surplus                                                     RARC-WP-13-001


Background
FERS is a pension program offered to federal employees hired since 1984. 4 Congress
designed FERS to be fully funded throughout an employee’s career. OPM calculates
the percentage of each employee’s salary that must be contributed, called the normal
cost percentage, and together the agency and the employee contribute that amount to
the pension fund. In recent years, OPM has increased the normal cost percentage
repeatedly to reflect changes in benefits and new assumptions, including increased
longevity. For most federal employees, the FERS normal cost percentage for
contributions is 12.7 percent, of which 0.8 percent is paid by the employee and the
balance by the agency. 5

The Postal Service pays the same normal cost percentage for FERS as other federal
entities, and the amount due in fiscal year (FY) 2011 was $3.0 billion. To track the
Postal Service’s FERS funding, OPM provides an annual estimate of the Postal
Service’s liabilities and assets for FERS, separated out from the rest of the federal
government. The assets include actual postal contributions and interest on those
contributions less benefit payments paid to postal retirees. The liabilities include
projections of future pension payments to postal annuitants less expected future
contributions. The projections are made using many system-wide actuarial
assumptions. A surplus exists when the assets exceed the estimate of the accrued
liabilities.


Makeup of the FERS Estimate
The amount of the FERS annuity is based on the employee’s years of service and
high-three salary — the average of the employee’s three highest consecutive annual
salaries. Annuities are usually paid starting at retirement for the rest of the retiree’s or
survivor’s lifespan. After retirement, annuitants who have reached age 62 also receive
cost-of-living adjustments (COLAs) based on inflation. Therefore, in order to estimate
the FERS liability, it is necessary to make assumptions about inflation, future salary
growth, retirement patterns, and life expectancy. In addition, actuaries make
assumptions about the expected interest rate on the fund’s assets. This interest rate
assumption is called the discount rate. Each of these assumptions can affect the
estimated liability. For example, an assumption that future salary growth will average
4 percent will result in a higher estimated liability than if the salary growth assumption
were 3 percent.

As experience unfolds, actual values replace assumed values for inputs such as COLA
and salary growth. For example, in 2009, OPM’s actuaries may have assumed that the
average salary increase would be 3 percent in 2010. However, by 2012, OPM knows
the actual average salary increase in 2010 and adjusts its estimated liabilities

4
 Some employees hired prior to 1984 had the option to switch from CSRS into FERS.
5
 FERS was designed so that employees would make the same contribution for Social Security and the FERS
pension as CSRS employees made for their pension, since CSRS employees did not participate in Social Security.
The FERS contribution rate for employees hired after January 1, 2013, will increase to 3.1 percent.


                                                       2
U.S. Postal Service Office of Inspector General                                                  October 16, 2012
Causes of the Postal Service FERS Surplus                                                        RARC-WP-13-001


accordingly. If the actual salary increase was only 2 percent, the estimated liability will
be smaller than first estimated — an actuarial gain from experience; conversely, if the
actual salary increase was 4 percent, the estimated liability will be greater than
expected — an actuarial loss from experience.


Hay Group’s Results
To determine the source of the FERS surplus, Hay Group analyzed investment returns,
salary growth rates, COLAs granted to retirees, and Postal Service demographic
experience. Hay Group found that some Postal Service characteristics differ from the
characteristics of the rest of the federal government, and these differences account for
the FERS surplus. Under current OPM assumptions, the surplus will likely continue and
increase over time. Specifically, Hay Group found

       The primary reason for the FERS surplus is that Postal Service employees have
        received smaller pay increases than assumed. General increases have been
        lower than predicted, and postal employees tend to go through fewer steps in
        their pay scale than typical federal employees, so they reach the top step more
        quickly. Since more than 70 percent of postal craft employees have already
        reached the top of their pay scale, it is likely that the current salary growth
        assumptions overstate future salary growth. If adjustments are not made to these
        assumptions to account for lower expected salary growth, the surplus will likely
        continue to grow over time as experience unfolds. Adjusting the salary growth
        assumptions will provide a more accurate and stable estimate of the Postal
        Service’s FERS liability and surplus.

       The recent $4 billion jump in the surplus was driven by OPM’s assumption of a
        2-year freeze on general pay increases for federal employees. This assumption,
        holding all else constant, lowered the estimated liability, which increases the
        surplus. 6

       A secondary reason for the surplus is that actual COLAs for annuitants have
        been lower than assumed, so the liability is less than what was previously
        estimated.

       The demographic characteristics and career patterns of postal employees differ
        from federal employees. Postal employees are less likely to leave their positions
        and withdraw from the system, less likely to take early retirement, yet more likely
        to die while employed or retire on disability. The combined effect of these
        demographic differences is a small increase in the surplus.

       The mortality experience of Postal Service annuitants also differs from the
        system-wide mortality experience. Using Postal Service-specific mortality


6
 Although the Postal Service’s pay systems are different from the federal pay systems, this assumption more closely
matches the Postal Service’s pay increases than the previous assumption.


                                                         3
U.S. Postal Service Office of Inspector General                                               October 16, 2012
Causes of the Postal Service FERS Surplus                                                     RARC-WP-13-001


        assumptions for annuitants would decrease the liability by between 1 and
        2 percent and increase the surplus.

       In the first decade of the FERS program, investment returns on the fund were
        typically higher than assumed; however, since 2004 actual returns have been
        lower than expected. Given this trend, it is likely that the Board of Actuaries will
        recommend a reduction in the current assumption about the future rate of
        investment return (the discount rate). Reducing the assumed investment return
        rate would increase the liability estimate and decrease the surplus; however,
        even with such a reduction, a substantial surplus should still exist.

Hay Group concluded that estimates of Postal Service liability should be made using
Postal Service-specific assumptions. The postal population is large enough to support
the development of Postal Service-specific assumptions. Moreover, this approach would
better align estimated liabilities with future payouts to postal annuitants, as these
payouts will reflect Postal Service-specific demographic characteristics, career patterns,
and salary growth.

The distinctive characteristics of the Postal Service FERS population suggest that the
underlying postal FERS surplus is larger than $11.4 billion. Hay Group found that
recalculating the Postal Service’s liability estimate based on Postal Service-specific
assumptions increases the FY 2011 surplus from $11.4 billion to $24.0 billion. Most of
the increase in the surplus is attributable to the change in the salary growth
assumptions.

The OIG supports using Postal Service-specific assumptions whatever the effect on the
FERS surplus as it provides a more accurate and stable estimate of Postal Service
liability that is more likely to match the future payout stream. For the same reason, we
believe that if Postal Service specific data are used for the calculation of the FERS
surplus, they should also be used in liability calculations for other benefit programs,
such as the CSRS pension program and retiree health benefits, regardless of the
results.

Providing a more accurate estimate of the Postal Service’s FERS obligations is
important for a better understanding of the Postal Service’s financial situation; however,
a more accurate estimate cannot prevent a surplus from occurring or return it once it
has accumulated. To prevent excessive surpluses from accumulating, Postal Service
contribution rates could be adjusted to reflect Postal Service-specific assumptions.
Under current law, there is no mechanism for addressing a FERS surplus once it has
occurred. While amortization payments are required if the FERS valuation shows a
deficit, no corresponding provision exists to return surpluses, although the Senate
postal bill (S. 1789) provides a potential solution. 7 The OIG described the problem of the
FERS surplus in 2010, and we continue to believe a solution is important for the Postal



7
  The bill reported by the House Committee on Oversight and Government Reform (H.R. 2309) also includes a one-
time transfer of the FERS surplus to the Postal Service.


                                                       4
U.S. Postal Service Office of Inspector General                                             October 16, 2012
Causes of the Postal Service FERS Surplus                                                   RARC-WP-13-001


Service’s financial health. 8 The Postal Service cannot afford to make pension
contributions that are not necessary for future benefits.




8
 U.S. Postal Service Office of Inspector General, Federal Employees Retirement System Overfunding, Management
Advisory Report Number FT-MA-10-001, August 16, 2010, http://www.uspsoig.gov/foia_files/FT-MA-10-001.pdf.


                                                      5
                                         October 12, 2012


                                         U.S. Postal Service
                                         Evaluation of the USPS Postal Service Fund for
                                         Employees Enrolled in the Federal Employees
                                         Retirement System




Submitted by:



4301 N. Fairfax Drive
Suite 600
Arlington, VA 22203
Phone: 703-841-3100
Fax: 703-841-3108



© 2012 Hay Group. All rights reserved.                                            www.haygroup.com
Contents


EXECUTIVE SUMMARY ......................................................................................................................... 1

I.        HISTORICAL SURPLUS ............................................................................................................ 5

II.       ACTUARIAL ASSUMPTIONS ................................................................................................... 7

III.      INVESTMENT RETURNS.......................................................................................................... 9

IV.       GAINS AND LOSSES FROM EXPERIENCE.......................................................................... 11

V.        PAY ANALYSIS .......................................................................................................................... 13

VI.       COLA ANALYSIS ....................................................................................................................... 17

VII.      USPS DEMOGRAPHIC EXPERIENCE................................................................................... 19

VIII.     MORTALITY ANALYSIS ......................................................................................................... 22

IX.       PROJECTION OF SURPLUS USING USPS-SPECIFIC ASSUMPTIONS .......................... 25

APPENDIX A.              ECONOMIC ASSUMPTION HISTORY ................................................................ 27

APPENDIX B.              FERS CENSUS DATA .............................................................................................. 28

APPENDIX C.              EMPLOYEES BY PAY LEVEL ................................................................................ 30

ACTUARIAL CERTIFICATION ........................................................................................................... 34




                                                                                                                                     www.haygroup.com
EXECUTIVE SUMMARY

USPS Office of Inspector General (OIG) retained Hay Group to perform an analysis of the USPS
portion of the Federal Employees Retirement System (FERS), including the origins and causes of
the current surplus.

The chart below shows that the USPS FERS fund has been in surplus since 1992.

                                                     USPS FERS Surplus
                                                    Amounts in $millions
  $12,000

  $10,000

   $8,000

   $6,000

   $4,000

   $2,000

         $0
                 1988
                        1989




                                             1992
                                                    1993
                                                           1994




                                                                                1997
                                                                                       1998
                                                                                              1999




                                                                                                                   2002
                                                                                                                          2003
                                                                                                                                 2004




                                                                                                                                                      2007
                                                                                                                                                             2008
                                                                                                                                                                    2009
                               1990
                                      1991




                                                                  1995
                                                                         1996




                                                                                                     2000
                                                                                                            2001




                                                                                                                                        2005
                                                                                                                                               2006




                                                                                                                                                                           2010
                                                                                                                                                                                  2011


  ($2,000)

    Source: Office of Personnel Management (OPM) actuarial valuations.
            The 2011 value is projected from the 2010 estimate.

Our key findings are:

             The primary reason for the surplus is due to USPS pay increases having been smaller
              than those assumed in the valuations. Furthermore, as over 70 percent of FERS Craft
              employees have reached the top step of their pay scale, additional surpluses will emerge
              unless the salary assumption is modified to reflect USPS experience and future
              expectation.

             The recent jump in surplus from nearly $7 billion as of September 30, 2009 to nearly
              $11 billion as of September 30, 2010 was due in part to the use of a two-year pay freeze
              assumption for fiscal years (FYs) 2011 and 2012. This assumption change was made


                                              1/34                                                                                                                                       www.haygroup.com
              for the entire FERS population to reflect the freeze of federal pay increases, but it also
              more accurately reflects the expected changes in USPS salaries over these years than
              the prior assumption.

             An additional reason for the surplus is due to actual inflation experience being below
              the rate of inflation assumed. Annuitants receive cost-of-living adjustments (COLAs)
              to their annuities based on a measure reflecting actual inflation. As prices have
              increased less than expected, the annuities have increased less than assumed, resulting
              in experience gains.1

             Partially offsetting the experience gains from lower than expected salary growth and
              inflation, actual investment returns have fallen below the interest rate assumed for the
              valuation. Historical asset gains, which grew to over $2 billion from higher investment
              earnings than assumed, have now been erased by lower than expected investment
              earnings since 2004.

             Given the material difference between the USPS pay scales and the federal pay scales,
              we recommend that the USPS FERS liability be measured using USPS-specific
              assumptions. With USPS membership accounting for 20 percent of the FERS total,
              USPS is easily large enough to warrant population specific assumptions. Given that
              this assumption will more accurately reflect the likelihood that future payouts to postal
              retirees will be based on lower salary increases, it will have the effect of reducing the
              Postal Service’s liability and increasing the surplus. Our analysis shows that using
              USPS-specific salary assumptions would reduce the FERS liability by $10.9 billion.

             USPS workforce demographic experience (turnover, retirement, disability, etc.) differs
              from the FERS overall experience. Reflecting the USPS specific demographic
              experience would reduce the FERS liability by an additional $0.9 billion.

             USPS annuitant mortality experience also differs from FERS overall mortality
              experience. Reflecting USPS mortality rates lowers the Actuarial Accrued Liability by
              about 1 to 2 percent. Using the USPS mortality rates in addition to the other USPS-
              specific assumptions further reduces the liability by $0.8 billion.

             Combining the USPS-specific assumptions for salary growth, workforce demographic
              experience, and annuitant mortality (i.e. using all USPS-specific assumptions) increases
              the FERS surplus from $11.4 billion to $24.0 billion.




1
    Experience gains or losses occur when actual experience differs from assumptions.



                                   2/34                                                        www.haygroup.com
USPS-Specific vs. OPM Pay Increase Assumptions for FERS

The focus of our work has been on estimating the impact on USPS’s FERS funding using
alternative, USPS-specific actuarial assumptions to measure FERS liabilities/costs. These
liabilities/costs have traditionally been measured by OPM’s actuaries utilizing the same actuarial
assumptions used to value the system-wide population in FERS.

Our studies demonstrate that OPM should consider the use of a more accurate assumption set for
the USPS portion of FERS. That is, our review of the likely future experience of the USPS
FERS population tells us that this population has had, and is expected to have, significantly
different experience than OPM assumes in its FERS liability/cost measurements. With USPS’s
share of the overall FERS fund being over 20 percent, we believe sound actuarial practice calls
for the USPS’s liability/cost to be measured separately from the rest of FERS.

Specifically related to future pay increases for USPS FERS active employees, our analyses have
shown that:

   1) USPS pay increases are materially lower than the OPM FERS valuation assumptions,
      which are based on the federal pay schedule. USPS Craft employees tend to go through
      fewer steps in their pay schedules and therefore employees reach the top of their pay
      schedule earlier in their careers than do federal employees. The OPM assumptions
      anticipate that Craft employees will continue to receive step pay increases in line with the
      federal pay schedule. For example, an employee hired at age 25 reached the top of the
      USPS pay steps at age 37. OPM’s valuation assumes step increases for the employee
      throughout the rest of his or her career at a rate of about 1 percent per year. In reality,
      USPS would likely only be granting COLA and small contractual pay increases. OPM
      actuaries have the Craft pay schedules, but do not have employee counts by Craft.
      Therefore, OPM has been unable to develop a separate USPS-specific salary assumption.
      Currently, 70 percent of Craft employees have reached the top of their pay schedule.

   2) Due to the Postal Service’s current financial condition, USPS pay increases for
      employees over the next several years will likely be materially lower than the 3.75
      percent annual pay increases assumed in OPM’s measurement. We note that OPM’s
      latest valuation includes the two-year federal pay freeze, which while not applicable to
      USPS, generally brings the short-term pay assumption closer to USPS projections for the
      next two years.




                         3/34                                                            www.haygroup.com
USPS-Specific vs. OPM Demographic Assumptions for FERS

This report examines the assumptions used in the current FERS valuation and compares them to
recent experience using USPS-specific experience where appropriate.

In 2010, at the request of the USPS, we conducted an experience study on USPS demographic
experience. Section VII summarizes the findings from that analysis, which remain valid.

We obtained recent USPS annuitant experience and conducted a mortality study. Section VIII
reports the findings from that analysis.

The report concludes with an estimate of the FERS surplus using the available Postal Service-
specific assumptions.


Acknowledgement

Hay Group would like to note that the timely completion of this report was made possible due to
the cooperation we received from the actuaries in the OPM Office of the Actuary.




                        4/34                                                          www.haygroup.com
  I.   Historical Surplus

If a retirement system is to operate on a sound actuarial basis, the funds on hand together with
the expected future contributions must be adequate to cover the value of future promised benefit
payments. Each year, as part of the actuarial valuation process, the actuary projects the expected
value of future benefits and the stream of contributions needed to meet the benefit payments.
The projection serves as the basis for the determination of the needed employer contributions to
the retirement fund.

A surplus exists if the funds on hand exceed the value of the accrued benefits. When the funds
on hand are less than the value of the accrued liabilities there is a deficit.

OPM conducts an annual actuarial valuation for the postal share of the FERS fund and issues a
valuation report in the fall. The valuation assesses the fund as of the previous fiscal year, with a
projection to the end of the current fiscal year. For example, the 2011 analysis evaluated the
fund as of September 30, 2010. The most recent long-term funding valuation showed a surplus
of $10.9 billion at the end of FY 2010 which was projected forwarded to $11.4 billion as of
September 30, 2011. This surplus was $4 billion greater than the previous year’s surplus.

The recent surplus is part of a historical trend in surpluses. As shown in Table I-1, since 1992,
the postal share of the FERS fund has shown a persistent surplus.




                          5/34                                                            www.haygroup.com
                                      Table I-1
           USPS FERS Liability, Assets, and Surplus (Deficit) as of Year-End
                                Amounts in $millions

  Year ending          Actuarial Accrued       Postal FERS Assets           Surplus (Deficit)
 September 30,             Liability
              1988                  $2,600                    $2,157                       ($443)
              1989                  $3,300                    $3,224                        ($76)
              1990                  $4,300                    $4,493                         $193
              1991                  $6,000                    $5,982                        ($18)
              1992                  $7,600                    $7,659                          $59
              1993                  $8,500                    $9,470                         $970
              1994                  $9,800                   $11,487                       $1,687
              1995                 $12,000                   $13,708                       $1,708
              1996                 $13,500                   $16,091                       $2,591
              1997                 $15,400                   $19,344                       $3,944
              1998                 $18,200                   $22,610                       $4,410
              1999                 $21,500                   $26,074                       $4,574
              2000                 $23,700                   $30,040                       $6,340
              2001                 $26,100                   $34,179                       $8,079
              2002                 $31,600                   $38,532                       $6,932
              2003                 $34,400                   $43,056                       $8,656
              2004                 $38,200                   $47,732                       $9,532
              2005                 $44,600                   $52,800                       $8,200
              2006                 $49,300                   $58,000                       $8,700
              2007                 $55,100                   $63,500                       $8,400
              2008                 $62,800                   $69,300                       $6,500
              2009                 $68,300                   $75,200                       $6,900
              2010                 $69,900                   $80,800                      $10,900
                   *
              2011                 $75,900                   $87,300                      $11,400
Source: OPM actuarial valuations.
*
 For 2011, liability, assets, and surplus were projected by OPM from its 2010 estimate.




                       6/34                                                                     www.haygroup.com
    II.     Actuarial Assumptions

Actuarial projections are based on a number of actuarial assumptions including economic
assumptions, such as assumed investment returns and salary growth rates; and demographic
assumptions, such as rates of turnover and mortality.

Economic assumptions include rates of inflation, investment return and salary growth. These
relatively few rates, compared to the large number of demographic assumptions, have the most
significant effect on the estimate of future contributions. The Postal Service retirement plans use
the same economic assumptions as utilized by OPM’s actuaries in their annual valuations of the
Civil Service Retirement System (CSRS) and the Federal Employees Retirement System
(FERS). The CSRS and FERS economic assumptions are reviewed periodically by an
independent Board of Actuaries to assure that they continue to be current and appropriate
predictors of the future, and they are typically adjusted upward or downward to keep pace with
changes in the expected rate of general inflation.

Table II-1 shows the most recent economic assumptions set by the Board of Actuaries for CSRS
and FERS. A history of economic assumptions appears in Appendix A.

                                                   Table II-1
                                     Current Economic Assumptions for FERS
                                  Inflation                                      3.00%
                                  CSRS COLA                                      3.00%
                                  FERS COLA                                      2.40%
                                  Interest Rate2                                 5.75%
                                  Salary Growth                                  3.75%
                                  Assumptions last revised on June 11, 2010.

Demographic assumptions include the set of rates that predict certain events occurring to a
group of employees or annuitants. Events of significance to a retirement system are those that
result in a commencement or termination of a benefit payment. The events affecting active
employees include reasons for leaving the system such as retirement, becoming disabled,
terminating service, or death. The events affecting annuitants include death. If an annuitant


2
    The interest rate is also referred to as the “discount rate” as future benefit payments are “discounted” to the measurement date
     using the expected return on assets.



                                    7/34                                                                                www.haygroup.com
would return to service, or if a disabled annuitant were to recover, the benefit payments to the
annuitant would stop.

It is general practice to introduce some degree of conservatism in setting actuarial assumptions.
However, the degree of conservatism varies widely among retirement systems. Some systems
set assumptions so that the retirement plan contributions will be at least as great as the
contributions needed in the most adverse foreseeable circumstances. Other systems set
assumptions that are close to the actual experience but conservative enough to protect against
small deviations from past experience.

OPM conducts experience studies periodically and updates the demographic assumptions upon
completion of the experience study and development of recommended assumptions, reviewed by
the Board of Actuaries.




                         8/34                                                           www.haygroup.com
III.    Investment Returns

One potential source of the surplus is higher than expected investment returns. Using historical
data on employee and agency contributions, benefit payments, assets and reported investment
income, we compared the actual returns with the valuation interest rate assumption as well as the
amount of the annual asset gains (or losses).

                                                   Table III-1
            FERS Contributions, Benefit Payments, Assets, and Investment Income, 1988 to 2011 (millions)
                          USPS                                      Reported        Postal
        Employee        Employer       Amortization    Benefit     Investment      Service       Actual     Assumed
Year   Contributions   Contributions    Payments      Payments       Income       Fund EOY       Return      Return
1988         $55.7         $671.4          $170.0        $12.5         $133.2      $2,156.8      8.90%        7.00%
1989         $59.1         $787.2           $32.2        $20.6         $209.3      $3,224.0      8.14%        7.00%
1990         $58.0         $877.6           $32.2        $27.2         $328.1      $4,492.7      8.92%        7.00%
1991         $62.6         $987.4           $32.2        $30.6         $437.2      $5,981.6      8.74%        7.00%
1992         $67.5        $1,054.3          $32.2        $35.7         $559.2      $7,659.2      8.57%        7.00%
1993         $69.9        $1,087.4          $32.2        $50.6         $671.9      $9,470.2      8.18%        7.00%
1994         $78.5        $1,220.1           $0.0        $62.2         $780.6     $11,487.2      7.74%        7.00%
1995         $92.4        $1,263.8           $0.0        $72.0         $936.2     $13,707.6      7.72%        7.00%
1996        $107.5        $1,459.3           $0.0        $87.0         $903.5     $16,090.9      6.25%        7.00%
1997        $116.3        $1,579.5           $0.0       $109.5       $1,667.0     $19,344.2      9.87%        7.00%
1998        $127.2        $1,700.1           $0.0       $134.9       $1,573.8     $22,610.4      7.79%        7.00%
1999        $171.2        $1,739.5           $0.0       $159.4       $1,712.0     $26,073.8      7.29%        7.00%
2000        $223.2        $2,003.3           $0.0       $197.1       $1,937.1     $30,040.3      7.15%        7.00%
2001        $183.0        $2,042.6           $0.0       $243.2       $2,156.4     $34,179.1      6.95%        6.75%
2002        $165.6        $2,115.5           $0.0       $284.7       $2,356.6     $38,532.1      6.70%        6.75%
2003        $169.7        $2,176.6           $0.0       $327.4       $2,505.0     $43,056.1      6.34%        6.25%
2004        $175.2        $2,245.7           $0.0       $393.0       $2,647.9     $47,731.9      6.01%        6.25%
2005        $184.6        $2,484.5           $0.0       $481.3       $2,849.1     $52,768.8      5.84%        6.25%
2006        $195.7        $2,640.7           $0.0       $566.1       $2,968.1     $58,007.2      5.51%        6.25%
2007        $203.9        $2,767.8           $0.0       $681.7       $3,206.3     $63,503.4      5.42%        6.25%
2008        $211.6        $2,892.1           $0.0       $780.5       $3,503.3     $69,329.9      5.42%        6.25%
2009        $217.0        $2,955.0           $0.0       $951.0       $3,649.1     $75,200.2      5.18%        6.25%
2010        $213.4        $2,899.2           $0.0     $1,147.2       $3,632.7     $80,798.2      4.77%        5.75%
2011        $201.0        $2,993.0           $0.0     $1,310.0       $4,700.1     $87,382.3       TBD         5.75%
Source: OPM Valuation as of September 30, 2010. The FY 2011 values are projections, and the FY 2011 employer
contribution includes $911 million that was not paid until FY 2012.



                             9/34                                                                          www.haygroup.com
Note that from 1988 until 2001, the actual return exceeded the valuation interest rate, although
returns have been lower since 2004. The investment income reported in 1996 appears to have
been understated (and corrected in 1997). OPM is looking into this for us, but it may have
resulted from a government shutdown.

Figure III-1 – Comparison of Actual to Expected Investment Earnings Rate


                                       Investment Earnings
                                        Actual      Expected
  10%
   9%
   8%
   7%
   6%
   5%
   4%
   3%
   2%
   1%
   0%




Source: Calculations by the authors.

Figure III-1 shows that the FERS Postal Service Fund experienced asset gains from 1988 through
2001. (In the graph above, 1996 and 1997 investment returns have been smoothed to eliminate
the apparent 1996 understatement and apparent 1997 overstatement.) These asset gains, which
grew to over $2 billion from higher investment earnings than assumed, have now been erased by
lower than expected investment returns since 2004. The investment assumption was reduced
from 7.00 percent in 2000 to 6.75 percent and further reduced to 6.25 percent in 2003, and
5.75 percent in 2010. By 2010, the actual investment returns had fallen to almost 1 percentage
point below the 5.75 percent valuation interest rate. It should be noted that the size of the FERS
Postal Service Fund is much larger in 2010 than it was in the late 1980’s and the 1990’s, so the
current investment shortfalls have more substantial impact than the historical excesses.




                             10/34                                                       www.haygroup.com
IV.    Gains and Losses from Experience

After identifying the asset gains (and losses), we subtracted the dollar amount of the asset gains
(or losses) from the total experience gains (or losses) to determine the liability gains (or losses).

Figure IV-1 shows the annual experience gains and losses by source.

Figure IV-1 – Annual Experience Gains and Losses by Source



                                    USPS FERS Annual Experience
                                       Amounts in $millions
                             Asset Gains (Losses)                                         Liability Gains (Losses)
   $6,000

   $5,000

   $4,000

   $3,000

   $2,000

   $1,000

      $-
             1988
                    1989
                           1990
                                  1991
                                         1992
                                                1993
                                                       1994
                                                              1995
                                                                     1996
                                                                            1997
                                                                                   1998
                                                                                          1999
                                                                                                 2000
                                                                                                        2001
                                                                                                               2002
                                                                                                                      2003
                                                                                                                             2004
                                                                                                                                    2005
                                                                                                                                           2006
                                                                                                                                                  2007
                                                                                                                                                         2008
                                                                                                                                                                2009
                                                                                                                                                                       2010

  $(1,000)

  $(2,000)


From 1989 through 2001, there were nine years with reported liability gains and three years with
liability losses. No liability losses exceeded $500 million, whereas six of the years reported had
reported liability gains in excess of $500 million.

Since 2001, there have been three years with reported liability losses in excess of $1 billion
(2002, 2005, and 2008). A key driver of these liability losses was the impact of assumption
changes.




                                     11/34                                                                                                                       www.haygroup.com
The interest rate was reduced from 7.00 percent to 6.75 percent in 2001, first reflected in the
2002 valuation; reduced again in the 2004 valuation to 6.25 percent. In 2007, the inflation
assumption and salary increase assumption were each increased by 25 basis points.

Figure IV-2 – Cumulative Experience Gains or Losses by Source

              USPS FERS Cumulative Experience Gains (Losses)
                          Amounts in $millions
                                                                Assets                      Liability
  $12,000

  $10,000

   $8,000

   $6,000

   $4,000

   $2,000

       $-
              1988
                     1989
                            1990
                                   1991
                                           1992
                                                  1993
                                                         1994
                                                                1995
                                                                       1996
                                                                              1997
                                                                                     1998
                                                                                            1999
                                                                                                   2000
                                                                                                          2001
                                                                                                                 2002
                                                                                                                        2003
                                                                                                                               2004
                                                                                                                                      2005
                                                                                                                                             2006
                                                                                                                                                    2007
                                                                                                                                                           2008
                                                                                                                                                                  2009
                                                                                                                                                                         2010
   $(2,000)



Figure IV-2 shows the cumulative experience gains and losses by source. As shown in Figure
IV-1, the system had asset gains from inception through 2001. The lower than assumed
investment returns since 2004 have erased the cumulative asset gains. By 2010, the cumulative
asset performance was a small loss. In contrast, from 1988 through 1992, the system had
cumulative liability losses. Since 1993, the system has had cumulative liability experience gains.
Since 2000, the Postal Service Fund has had combined liability and asset gains of over $5 billion,
and by 2010 they increased to over $11 billion. Liability gains could result from more favorable
experience than assumed for salary growth, inflation, or demographic behavior.




                                          12/34                                                                                                                          www.haygroup.com
    V.      Pay Analysis

In general the pension awarded to any individual FERS employee is dependent on that
individual’s annual salaries just prior to retirement. Higher annual salaries will result in a larger
retirement benefit for an individual and, as such, a larger overall FERS liability.

In calculating the FERS liability, the OPM valuations used the assumed annual rate of general
salary increases approved by the Board of Actuaries plus a merit increase assumption developed
from actual experience. General salary increases are those granted to everyone and not
attributable to merit.


General Salary Increases

We performed an analysis to determine whether historical OPM general salary increase
assumptions were reasonable, compared to actual USPS general increases granted. This analysis
was performed for the period of 1/1/2002 through 1/1/2011.

We reviewed the OPM assumptions for annual general increases in pay.3 OPM historically
assumed general salary increases ranging from 3.75 percent annually to 4.25 percent annually
during our study period. The average annual growth assumption, for the time period studied,
was 4.11 percent. Table V-1 below shows the general salary increase assumptions used by
OPM. The dates shown are the dates on which an assumption was changed.

                                                      TableV-1
                                               General Salary Increase
                                              Assumption Used by OPM
                                                              Salary
                                                Date
                                                              Growth
                                              03/16/01         4.25%
                                              05/08/03         4.00%
                                              06/08/06         4.25%
                                              06/11/10         3.75%




3
    The data provided included the salary increase assumption and a corresponding date of implementation. However, the data did
     not show the OPM valuation for which the assumption was effective. We have assumed that all changes in the assumptions
     were effective the following January 1.



                                   13/34                                                                           www.haygroup.com
Hay Group was provided with actual pay increases equivalent to general salary increases for
NALC, NRLCA, APWU, and NPMHU union members, for the period from 2002 through 2010.4
Based on our analysis of the data, we have found that annual pay increases for the unions ranged
from a high of 3.41 percent for NRLCA, to a low of 2.77 percent for APWU. Based on these
results, we have determined that the general salary increases assumed by OPM are higher than
the actual pay increases awarded. This has resulted in OPM overestimating the salaries of USPS
employees and, as such, the FERS liability.

Figure V-1 below shows the average annual pay increases for the four major unions as well as
the average OPM assumption.

Figure V-1

                  Annualized Percentage Pay Increases 1/1/2002 to 1/1/2011

    Assumption                                                                                        4.11%

           APWU                                                         2.77%

            NALC                                                              3.03%

         NPMHU                                                                       3.34%

          NRLCA                                                                       3.41%

                  0.00%       0.50%        1.00%    1.50%       2.00%      2.50%      3.00%       3.50%      4.00%      4.50%




4
    The pay increase data received for each union began with an increase at some time in 2002 and ended with an increase in
    either 2010 or 2011. In order to perform a consistent analysis of pay increases, we required data for a uniform time period for
    all unions. To this end, we assumed that the data included all 2002 increases. We did not include 2011 pay increases in our
    analysis, as some unions did not have 2011 pay increase data shown. Therefore, our analysis was performed for the period of
    1/1/2002 through 1/1/2011.



                                   14/34                                                                               www.haygroup.com
Figure V-1 shows that over the last decade, USPS pay increases have been significantly lower
than the FERS valuation assumption. The APWU bargaining unit has the largest enrollment and
the NALC unit the second largest enrollment.


Other Salary Increases

We also reviewed differences in the step structure for USPS and federal employees. USPS Craft
employees tend to go through fewer steps in their pay schedules and therefore employees reach
the top of their pay schedule earlier in their careers than do federal employees. The OPM
assumptions anticipate that Craft employees will continue to receive step pay increases in line
with the federal pay schedule. For example, an employee hired at age 25 reaches the top of the
USPS pay steps at age 37. OPM’s valuation assumes step increases for the employee throughout
the rest of his or her career at a rate of about 1 percent per year. In reality, USPS would likely
only be granting cost-of-living adjustments and small contractual pay increases.

OPM actuaries have the Craft pay schedules, but do not have employee counts by Craft.
Therefore, OPM has been unable to develop a separate USPS-specific salary assumption.
Currently, 70 percent of FERS Craft employees have reached the top of their pay schedule. (See
Appendix C for more information.)


Assumptions for USPS-Specific Projections

To reflect this experience, we incorporated a lower salary growth assumption into our USPS-
specific projection in Section IX. In order to estimate the impact of the difference between
USPS’s expected future pay increases and the pay increase levels assumed in the OPM FERS
valuations, we have utilized the 11-year projection of expected future pay increases shown in
Table V-2, which was prepared by USPS’s expense forecasting team.

These weighted average pay increases take into account contractual increases (some known,
some estimated), step increases and COLA increases (across-the-board increases, generally
reflective of inflation). This forecast does not reflect pay increases in connection with
promotions. Therefore, for purposes of our analysis, to capture the weighted average impact of
promotions, we have added to each of these forecasted increase levels another 0.10 percent.
Based upon our discussions with Postal Service representatives, 0.10 percent is a conservative
estimate for this purpose. In our USPS-specific projection, these estimates were used together in
place of OPM’s general salary growth and merit growth assumptions.




                         15/34                                                           www.haygroup.com
                 Table V-2
   USPS Forecast Team’s Projected Pay
      Increases for FERS Employees
                       Weighted Average
  Fiscal Year
                      Percentage Increase
     2012                   0.33%
     2013                   2.27%
     2014                   2.39%
     2015                   2.13%
     2016                   2.39%

        2017                2.52%
        2018                2.55%
        2019                2.57%
        2020                2.56%
        2021                2.55%

        2022                2.55%




16/34                                       www.haygroup.com
VI.    COLA Analysis

Another source of experience gains is lower than expected inflation. After retirement, FERS
annuitants over age 62 receive annual cost-of-living adjustments (COLAs). The increases are
based on the Consumer Price Index (CPI), quarter ending September 30, and are applied
effective the following January 1.

When inflation is less than 2.00 percent the COLA is the actual rate of inflation. When inflation
is between 2.0 percent and 3.00 percent, the COLA is 2.00 percent. When inflation is over 3.00
percent, the COLA is the actual rate of inflation less 1.00 percentage point. USPS FERS retirees
receive the same COLA as Federal FERS retirees.

Figure VI-1 – Comparison of Actual to Expected COLA


                                 FERS Retiree COLA
   6.0%
   5.0%
   4.0%
   3.0%
   2.0%
   1.0%
   0.0%
           1988
           1989
           1990
           1991
           1992
           1993
           1994


           1997
           1998
           1999
           2000
           2001
           2002
           2003
           2004


           2007
           2008
           2009
           2010
           2011
           1995
           1996




           2005
           2006




                                  Actual Increase         Assumption


Figure VI-1 shows that since FERS was established through 2011, the actual COLA granted has
exceeded the valuation assumption three times and has been less than the assumption 21 times.




                         17/34                                                          www.haygroup.com
When COLAs are smaller than assumed, annuities increase less than projected. The remeasured
liability is lower than expected, resulting in an increase in the surplus. Since the COLA is the
same for Postal Service and non-postal FERS participants, the entire FERS fund experiences
gains from lower than expected COLAs.

The inflation assumption is set by the Civil Service Retirement and Disability Fund (CSRDF)5
Board of Actuaries and was last changed effective June, 2010 when it was reduced from 3.50
percent to 3.00 percent. The FERS COLA assumption, which accounts for year to year
fluctuation around the long-term rate, is 80 percent of the inflation assumption, so the current
assumption is 2.40 percent.




5
    CSRDF includes both the Civil Service Retirement System and the Federal Employees Retirement System.



                                  18/34                                                                    www.haygroup.com
VII.    USPS Demographic Experience

Experience gains (losses) can occur when demographic experience is different than expected.
Hay Group conducted an actuarial investigation (“Experience Analysis”) on the USPS FERS
population in 2010 to see how it differed from the total FERS population. Individual data on all
FERS members employed by USPS were gathered for nine snapshot annual dates, covering eight
years of elapsed time. Also, an additional file was provided for each year that documented the
Nature of Action for any active employee who separated between the snapshot dates.

A history for each member in the study was created for active employee’s status on each of the
nine snapshot dates. If the member was not yet hired, the status was blank. If the member was
actively employed or had separated, then a code was used to indicate the status of that member.
In the case of members who terminated during the study and then were rehired, the record
indicated active status in the earlier years then a termination status up until the member was
rehired. The first snapshot date following rehire then indicated that the member was active.

By stringing together the statuses for each employee, we were able to run the data through
Access programs to summarize all actual and expected occurrences in the data plus counts of all
members exposed to the valuation decrements. These actual counts, expected counts, and
exposure were then compiled and analyzed to compare to the FERS valuation assumptions, as
well as develop USPS specific assumptions.

All USPS specific rates were developed to be consistent with OPM rates. For example, if the
OPM rates were age and service based, then the USPS rates were developed to mirror the age
and service based rate format.

The actuarial investigation reviewed the following elements:

   1.   Distribution of new entrants by age, sex, and service;
   2.   Withdrawal rates;
   3.   Normal retirement rates;
   4.   Involuntary retirement rates;
   5.   Disability retirement rates;
   6.   Early retirement rates;
   7.   Employee death rates;

Development of demographic actuarial assumptions begins with the analysis of actual experience
to expected experience, and the calculation of the actual-to-expected ratio. The actual-to-
expected ratio gives a measure of how closely the assumption predicted what actually happened.



                          19/34                                                        www.haygroup.com
If the actual-to-expected ratio is greater than 100 percent, then the actuarial assumption under-
predicted; if the actual-to-expected ratio is less than 100 percent, then the assumption over-
predicted the number of occurrences.

Figure VII-1 – Comparison of USPS Demographic Experience to OPM Assumptions


              USPS Demographic Experience 2001-2009
             Withdrawal                           68%
         Early Retirement                                   95%
      Normal Retirement                                      102%
  Involuntary Retirement                                     103%
                Mortality                                                   136%
                Disability                                                         152%

                             0%      20%   40%     60%     80%       100%   120%   140%   160%

                                     Ratio of Actual to Assumption




The chart shows that the USPS withdrawal (voluntary turnover) rate was materially lower than
assumed. When withdrawal is lower than assumed, more employees remain employed and a
higher percent of employees vest in their benefits, resulting in a higher cost and therefore an
actuarial loss.

The retirement rates are in line with the overall FERS assumption, with the exception of slightly
lower rates for early retirement.

The in-service mortality rate is materially higher than the assumption, however OPM includes
margin for expected mortality improvement in its valuation assumption . Moreover, this assumption
has the smallest impact on liabilities for active employees of those shown.

The rate of disability retirement is over fifty percent higher than assumed.



                             20/34                                                           www.haygroup.com
To determine the effect of using USPS-specific demographic data, we incorporated USPS-
specific assumptions in our projection in Section IX. The overall effect was to slightly reduce the
Postal Service’s liability.




                         21/34                                                            www.haygroup.com
VIII.     Mortality Analysis

 A study of USPS-specific mortality for annuitants was conducted using census and event data
 provided by OPM. The study included FERS and CSRS annuitants and was based on observed
 experience covering the period 2000 to 2011. Due to paucity of data on older FERS annuitants,
 data for CSRS annuitants was combined with FERS annuitants for this analysis.

 The charts below compare USPS mortality observed from the earliest years of the periood
 analyzed to the experience in 2011, the latest year in the study period.

 The study showed shifts in the rate of mortality by year – with improvements in mortality over
 the 11-year period for male annuitants over age 65, but deterioration in mortality rates for
 younger male annuitants.

                             Male USPS Non-Disabled Annuitant
                              Mortality Experience 2000-2011
                                      2000-2002        2011
   9.0%


   8.0%


   7.0%


   6.0%


   5.0%


   4.0%


   3.0%


   2.0%


   1.0%


   0.0%
           Male 55-59    Male 60-64    Male 65-69    Male 70-74     Male 75-79    Male 80-84




                         22/34                                                         www.haygroup.com
For females, the study showed a small improvement in mortality rates at ages under 65, no
material improvement at ages 65-74 and a small improvement at ages 75-79, with larger
improvement at the older ages.


                         Female USPS Non-Disabled
                                               -   Annuitant
                           Mortality Experience 2000 -2011
                                          2000 -2002           2011
  6.0%


  5.0%


  4.0%


  3.0%


  2.0%


  1.0%


  0.0%
         Female 55 -59    Female 60 -64   Female 65 -59   Female 70 -74   Female 75 -59   Female 80 -84



Based on the observed rates and the pattern of mortality changes over the past 11 years, we
projected continued improvements at ages where we had seen improvements and stable rates for
ages where mortality rates had increased. This projected set of rates was smoothed to develop
the USPS specific mortality table.

This process (evaluation of historical changes and projection of future improvements) mirrors the
process used by the OPM Office of the Actuary in developing the FERS and CSRS annuitant
mortality rates.

We applied the OPM mortality rates to the current annuitant data set and calibrated the results to
match the OPM valuation report on USPS FERS liability. We then applied the USPS specific
mortality rates to the annuitant and active employee census data. The table below shows the
impact of measuring the liability using the USPS specific mortality rates is a decrease in the
Actuarial Accrued Liability of 1.4 percent.




                           23/34                                                                 www.haygroup.com
                                     Table VIII-1
                   Estimate of FERS Surplus as of September 30, 2011
                     Based on USPS Specific Mortality Assumptions
                                              Current – OPM            USPS Specific
                                               Assumptions             Mortality Rates
Assumed Investment Return Rate                    5.75%                    5.75%
Salary Increase Assumptions:                      OPM                      OPM
Assumed Post-Retirement COLA Increases            2.40%                    2.40%
Demographic Assumptions (other than               OPM                      OPM
annuitant mortality)
Annuitant Mortality Assumption                     OPM                     USPS
Assets                                             $87.3                   $87.3
Actuarial Accrued Liability                        $75.9                   $74.8
Surplus                                            $11.4                   $12.5




                      24/34                                                     www.haygroup.com
IX.    Projection of Surplus Using USPS-Specific Assumptions

To show the effect of using USPS-specific assumptions, we developed a projection of the FERS
surplus as of September 30, 2011. To be consistent with the current OPM economic assumptions
(most recently approved by the CSRDF Board of Actuaries), our FERS surplus estimates have
been based upon an interest rate of 5.75 percent and a post-retirement COLA increase rate of
2.40 percent per year.

To estimate the impact of the lower (versus those assumed by OPM) expected future USPS pay
increases, we have assumed overall FY 2012 through FY 2022 pay increases in accordance with
USPS’s forecast (as shown in Table V-2 above), plus the 0.10 percent adjustment for promotion
increases. For fiscal years 2023 and beyond, we have assumed USPS pay increase levels will be
consistent with those assumed by OPM general salary increases, no future step increases will be
applied, however we included the 0.10 percent adjustment for promotions. Using these USPS
specific salary increases, the Actuarial Accrued Liability is remeasured as $65.0 billion, a
decrease of $10.9 billion.

We also consider the Postal Service’s past demographic experience. Based upon Hay Group’s
Experience Study of Postal Service’s FERS population, we did see that USPS’s past
demographic experience (turnover, retirement, etc.) differed somewhat from what would have
been expected under OPM’s demographic assumptions. Using our USPS-specific demographic
assumptions in place of the OPM demographic assumptions, in fact, gives rise to a $0.9 billion
reduction in the FERS liability, and a slightly higher FERS surplus.

In addition to the demographic experience study, which examined the turnover, disability, and
retirement experience of employees, we also studied the mortality experience of non-disabled
annuitants. The study was based on an analysis of actual deaths covering the period 2000 to
2011. The remeasurement based on USPS mortality experience reduces the Actuarial Accrued
Liability by $0.8 billion.

Table IX-I compares the FERS surplus as currently measured to the remeasured surplus using
USPS-specific assumptions. Whereas the current OPM FERS surplus measure of $11.4 billion
represents about 17 percent of annual Postal Service revenues and about 15 percent of the USPS
FERS liability, the revised FERS surplus estimate of $24.0 billion represents over 35 percent of
annual Postal Service revenues and over 37 percent of the USPS FERS liability.




                         25/34                                                         www.haygroup.com
                                      Table IX-1
                  Estimate of FERS Surplus as of September 30, 2011
             Based on Alternate Pay Increase and Demographic Assumptions
             Amounts in $Billions            OPM Assumptions      USPS-Specific
                                                                    Assumptions
   Assumed Investment Return Rate                     5.75%                  5.75%
   Salary Increase Assumptions:
     General Salary Increase                          3.75%                  USPS
     Merit Salary Increase                            OPM                    USPS
   Assumed Post-Retirement COLA Increases             2.40%                  2.40%
   Active Demographic Assumptions                     OPM                    USPS
   Annuitant Mortality Assumption                     OPM                    USPS
   Assets                                             $87.3                  $87.3
   Actuarial Accrued Liability                        $75.9                  $63.3
   Surplus                                            $11.4                  $24.0

It should be noted that, throughout the analyses described above, we have assumed no changes to
the level of future employee contributions to FERS. Should such a change be legislated, it may
have the impact of both (i) increasing the future FERS surplus and (ii) decreasing the FERS
contribution needed from employers, the Employer Normal Cost. As well, such a change would
reduce the remaining funding needed to fully fund USPS-FERS benefits and therefore could
eliminate the need for payment of future annual employer normal costs.




                        26/34                                                         www.haygroup.com
Appendix A.            Economic Assumption History
Table A-1 shows a history of the economic assumption changes for CSRS and FERS. The
shortest period between assumption changes was two years, with most of the changes being
implemented after a period of four or five years.

                                             Table A-1
                                     Historical Assumptions
                                                 Interest          Salary
                        Date       Inflation
                                                   Rate            Growth
                     10/1/1979      5.00%         6.00%            5.50%
                     10/1/1983      5.00%         6.50%            5.50%
                     10/1/1987      5.00%         7.00%            5.00%
                    12/31/1992      4.50%         7.00%            4.50%
                     2/11/1997      4.00%         7.00%            4.25%
                     3/16/2001      3.75%         6.75%            4.25%
                      5/8/2003      3.25%         6.25%            4.00%
                      6/8/2006      3.50%         6.25%            4.25%
                     6/11/2010      3.00%         5.75%            3.75%


The surplus is a function of the assumptions used to measure the liability. In the event that the
CSRDF Board of Actuaries approves new assumptions, it is likely that they will select a lower
interest rate (as the investment earnings on the assets are currently less than 5.75 percent), as
well as lower expected salary growth and possibly lower inflation. If the change in the interest
rate is matched by a similar change in the expected rate of inflation, the overall level of the
surplus is likely to be similar to the current level. If, however, only the interest rate is reduced,
then the liability will increase.




                          27/34                                                            www.haygroup.com
Appendix B.          FERS Census Data
Categorization of Employees by Retirement System

USPS provided Hay Group with data for each union, by pay grade and career level. This data
was further broken out by retirement code. USPS also provided a description of each of the
retirement codes. Using the provided retirement codes and their corresponding descriptions, Hay
Group categorized employees as either CSRS or FERS participants. Table B-1 below shows
Hay Group’s assignment of retirement system to employees for each of the provided retirement
codes.

                                       Table B-1
                 Assignment of Retirement System by Retirement Code
        Retirement                                               Hay Group
                                     Description
          Code                                                 Categorization
             1      CSRS- Initial Appointment Prior To 1/1/84      CSRS
             2      FICA (Non Career)                               None
             3      CSRS - Postal Inspectors                       CSRS
             4      Excluded (Subject To Medicare)                  None
             5      CSRS Offset (Meets “Five Year Test”)           CSRS
                    CSRS Offset - Inspectors (Meets “Five Year
             6                                                     CSRS
                    Test”)
             7      CSRS - Postal Rate Commission                  CSRS
             8      FERS                                           FERS
             9      FERS - Postal Inspectors                       FERS
                    Converted From CSRS To FERS - Regular
             A                                                     FERS
                    Employees (Frozen CSRS Service)
                    Converted From CSRS To FERS - Postal
             B                                                     FERS
                    Inspectors (Frozen CSRS Service)




                        28/34                                                         www.haygroup.com
Table B-2 shows a summary of the FERS employee population by age and length of service.

                                      Table B-2
                    FERS Employee Census by Age and Years of Service
                                                Years of Service
 Age      Under
                     10 - 14      15 - 19   20 - 24   25-29    30 – 34     35 - 39   40+    Total
           10
 < 20           2          -           -         -         -           -        -       -         2
20 -24        454          -           -         -         -           -        -       -       454
25 - 29     7,521         74           -         -         -           -        -       -     7,595
30 - 34    16,915      5,033          67         -         -           -        -       -    22,015
35 - 39    17,140     17,157       6,071        67         -           -        -       -    40,435
40 - 44    18,474     22,837      18,421     6,827       389           -        -       -    66,948
45 - 49    18,735     21,507      19,403    25,198    17,651         240        -       -   102,734
50 - 54    16,436     21,595      17,728    25,839    33,589       3,419       91       -   118,697
55 - 59    10,706     16,389      15,458    18,626    23,780       3,065      665      10    88,699
60 - 64     5,278      7,982       9,459     9,649    11,762       1,469      317      72    45,988
65 - 69     1,415      1,980       2,173     2,240     2,311         336       58      34    10,547
70 - 74       289        403         386       373       413          45       15      14     1,938
 75 +          71         71          88       130       118          12        4      12       506
 Total    113,436    115,028      89,254    88,949    90,013       8,586    1,150     142   506,558




                          29/34                                                              www.haygroup.com
Appendix C.          Employees by Pay Level
The following tables show the counts of the number of FERS union employees by pay grade.
Table C-1, which shows summary information for the percent of employees by union that have
reached the top step, shows counts for both FERS union employees and all union employees
(CSRS and FERS). When including only FERS employees, 84 percent of APWU employees are
at the top pay step whereas 40 percent of NRLCA members have attained the top step. Overall,
70 percent of FERS union employees have already reached the top step and would only be
eligible for general pay increases. Tables C-2 through C-5 show, for each union, the counts of
FERS employees at each pay grade, by career level.

                                      Table C-1
      Top Step Career by Union for FERS Employees and for All Union Employees
                                Pay Period 08 FY2012
                    FERS Union Employees              All Union Employees
      Union                   Total       % at                Total       % at
               Top Step                         Top Step
                          Complement Top                   Complement     Top
     APWU       131,976      157,684      84%   166,735      192,714      87%
     NALC       107,608      156,193      69%   130,812      179,602      73%
     NRLCA       24,164       61,038      40%    27,063       64,065      42%
     NPMHU       26,776       39,091      68%    31,786       44,208      72%
     Total      290,524      414,006      70%   356,396      480,589      74%




                        30/34                                                        www.haygroup.com
  APWU

  There are 157,684 FERS employees in the APWU. Of these, 131,976 or 84 percent are at the top step.

                                                          Table C-2
                                                           APWU
                                         FERS Employees by Pay Grade and Career Level
Level   FF    EE     BB AA A     B C    D   E    F     G     H     I     J     K     L     M     N       O         P
  3       -     -      -  - -     - 2    2   7     9     7     7     1     3     8     4    10     5       224        -
  4       -     -      1 1 -     11 24 148 286   182   297   263   145   137   149   308   402   401     7,568        -
  5     349     -      -  - -     - 2    2   6    18    21    34   136   131    23    40   135    31     1,229        -
  6       3    1       -  - 5     2 7 16 37      691 1,690 1,114 2,104 3,156 2,989 1,593   691   348    86,414        -
  7       1     -      -  - 4    13 29 45 55     144   187   157   227   299   252   185   143   172    20,761        -
  8      18    2       -  - -     5 3    6   8    47   122   214   196   282   220   258   217   140     4,994        -
  9       -     -      -  - -     -  - 29 67      84   155   140   141   245   242   226   216   311       396    5,665
 10       -     -      -  - -     -  -   8 23     56    62   104   133   206   175   216   206   200       218    5,057
 11       -     -      -  - -     -  -    -   -    -     -     -     -     1     -     -     -     1         1       64
Total   371    3       1 1 9     31 67 256 489 1,231 2,541 2,033 3,083 4,460 4,058 2,830 2,020 1,609   121,805   10,786




                    31/34                                                                                   www.haygroup.com
NALC

There are 156,193 FERS employees in the NALC. Of these, 107,608 or 69 percent are at the top step.

                                                         Table C-3
                                                          NALC
                                        FERS Employees by Pay Grade and Career Level
     Level     A        B     C     D       E      F        G     H       I       J        K        L     M        N          O
       1      107       571 1,650 4,918   4,356   4,171   4,494 3,304   2,692   1,880    2,283    2,665 2,709     2,292      96,181
       2       11       289   511   768   1,107   1,466   1,112   767     665     577      840      629   629     1,121      11,426
       5        1         0     0     0       0       0       0     0       0       0        0        0     0         0           0
       6        0         0     0     0       0       0       0     0       0       0        0        0     0         0           1
     Total    119       860 2,161 5,686   5,463   5,637   5,606 4,071   3,357   2,457    3,123    3,294 3,338     3,413     107,608

NPMHU

There are 39,091 FERS employees in the NPMHU. Of these, 26,776 or 68 percent are at the top step.

                                                         Table C-4
                                                         NPMHU
                                        FERS Employees by Pay Grade and Career Level
 Level   AA A    B    C           D        E      F     G       H        I      J       K        L     M        N         O          P
   4      8 37 1,780 96           168     1,286 1,212 1,858     497     549     416     564      600   566       469       449     19,807
   5      0 12    78 22            54       151   196   127      60     109     147     128      111   126       112       327      6,965
   6      0 0      0   0            0         0     0     0       0        0      0       0        0     0         0         0          3
   7      0 0      0   0            0         0     0     0       0        0      0       0        0     0         0         0          1
 Total    8 49 1,858 118          222     1,437 1,408 1,985     557     658     563     692      711   692       581       776     26,776




                32/34                                                                                                            www.haygroup.com
NRLCA

There are 61,038 FERS employees in the NRLCA. Of these, 24,164 or 40 percent are at the top step.

                                                             Table C-5
                                                              NRLCA
                                            FERS Employees by Pay Grade and Career Level
 Level     A         B        C       1         2      3        4      5        6       7       8       9      10      11        12
   0      2,958     3,833   3,627   3,192     3,536   3,476   2,986   2,306   2,267   1,727   1,948   1,940   1,557   1,521     24,164
 Total    2,958     3,833   3,627   3,192     3,536   3,476   2,986   2,306   2,267   1,727   1,948   1,940   1,557   1,521     24,164




                  33/34                                                                                                       www.haygroup.com
Actuarial Certification

USPS Office of Inspector General (OIG) retained the Hay Group to perform an analysis of the
USPS portion of the Civil Service Retirement and Disability Fund (CSRDF). The scope of this
assignment was limited to the Federal Employees Retirement System. Use of these results for
other purposes may not be appropriate.

This analysis has been conducted in accordance with generally accepted actuarial principles and
practices.

The results shown in this report are reasonable actuarial results. However, a different set of
results could also be considered reasonable actuarial results. The reason for this is that actuarial
standards of practice describe a "best-estimate range" for each assumption, rather than a single
best-estimate value. Thus, reasonable results differing from those presented in this report could
have been developed by selecting different points within the best-estimate ranges for various
assumptions.

The actuaries certifying to this report are members of the American Academy of Actuaries and
other professional actuarial organizations, and meet the General Qualification Standards of the
American Academy of Actuaries for purposes of issuing Statements of Actuarial Opinion.




Adam J. Reese, FSA, FCA, MAAA, EA




Craig Graby, FCA, MAAA, EA
October 12, 2012




                          34/34                                                            www.haygroup.com
